<html>
<title> - FEDERALISM IMPLICATIONS OF TREATING STATES AS STAKEHOLDERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       FEDERALISM IMPLICATIONS OF TREATING STATES AS STAKEHOLDERS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2018

                               __________

                           Serial No. 115-68

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-397 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>               
              
              
              
              
              
              
              
              
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
   Christina Aizcorbe, Intergovernmental Affairs Subcommittee Staff 
                                Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2018................................     1

                               WITNESSES

The Honorable Gary Richard Herbert, Governor of Utah
    Oral Statement...............................................     4
    Written Statement............................................     7
The Honorable Susana Martinez, Governor of New Mexico
    Oral Statement...............................................    10
    Written Statement............................................    12
The Honorable Clement Leroy Otter, Governor of Idaho
    Oral Statement...............................................    14
    Written Statement............................................    16

                                APPENDIX

National Governors Association Statement for the Record submitted 
  by Mr. Palmer..................................................    44
Western Governors Association Statement for the Record submitted 
  by Mr. Palmer..................................................    49
Recommended Principles for Regulatory Reform submitted by Mr. 
  Connolly.......................................................    81
NACo Statement for the Record submitted by Mr. Connolly..........    82
Letter of January 20, 2017, from NACo submitted by Mr. Connolly..    88
NewDEAL Statement for the Record submitted by Mr. Connolly.......    95

 
       FEDERALISM IMPLICATIONS OF TREATING STATES AS STAKEHOLDERS

                              ----------                              


                       Tuesday, February 27, 2018

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Gary Palmer 
presiding.
    Present: Representatives Palmer, Gowdy, Duncan, Jordan, 
Sanford, Amash, Gosar, Meadows, DeSantis, Walker, Blum, Hice, 
Grothman, Hurd, Mitchell, Maloney, Norton, Lynch, Connolly, 
Kelly, Plaskett, Krishnamoorthi, Raskin, Welch, and DeSaulnier.
    Also Present: Representatives Bishop, Gonzales-Colon, and 
Zeldin.
    Mr. Palmer. The committee will come to order. Without 
objection, the chair is authorized to declare a recess at any 
time.
    I would like to thank Governor Herbert, Governor Martinez, 
and Governor Otter for the time they are taking today to share 
important testimony with the committee and the Speaker's Task 
Force on Intergovernmental Affairs.
    The committee and task force have been engaged in a review 
of federalism, identifying opportunities to improve the 
partnership between the Federal Government and State local 
counterparts. Your testimony will serve an important piece of 
this narrative as we look toward reform.
    It is my understanding Governor Herbert must leave by noon, 
so I will keep my statement short to maximize time for 
questions, and I will encourage our members to be sensitive to 
the time. And if there is a question toward the end of the five 
minutes that would require a longer answer, I would encourage 
the witnesses to provide the answer in writing.
    To the extent members do not need to use their full five 
minutes, please be mindful of the Governor's time. We will work 
our way through questions quickly to accommodate everyone's 
schedule.
    We would like to welcome those members of the task force 
for joining us today. I ask unanimous consent to waive members 
of the Speaker's Task Force on Intergovernmental Affairs for 
today's hearing. Without objection, so ordered. I will also ask 
unanimous consent to insert statements from the National 
Governors Association and Western Governors Association into 
the record. Without objection, so ordered.
    Mr. Palmer. I now recognize the ranking member, my friend 
Mr. Connolly, for five minutes for his opening statement.
    Mr. Connolly. I thank the chair, and I thank my friend Mr. 
Bishop in particular with the intergovernmental task force we 
both serve on, and I want to welcome our distinguished guests, 
the three Governors, for joining us this morning.
    We are conducting this hearing in collaboration with the 
Speaker's Task Force on Intergovernmental Affairs. As a member 
of that task force, I have been glad to work with Mr. Bishop 
and our colleagues over the course of the past year on several 
meetings and events centered around the topic of improving 
coordination among all of the levels of government.
    One thing our task force has done well is to promote an 
intergovernmental dialogue that incorporates all perspectives. 
While I would have preferred to include in on today's panel a 
local government perspective as well as the State perspective 
with equal billing, I hope we can invite in the near future 
American mayors and local government officials to testify to 
the full committee on this topic. And I was gratified that 
Chairman Gowdy agrees with that request. This is a dialogue 
best had without segregating the different levels of government 
in a way that promotes the very divisions we seek to address.
    In the spirit of promoting intergovernmental collaboration, 
I intend to introduce the Restore the Partnership Act to 
establish the National Committee on Intergovernmental 
Relations, a successor to the Advisory Commission on 
Intergovernmental Relations that operated from 1959 through 
1995. The commission will promote mechanisms for fostering 
better relations among the levels of government; provide 
technical assistance to the Federal, executive, and legislative 
branches in the review of proposed legislation; recommend the 
most desirable allocation of government functions, 
responsibilities, and revenues among the various levels of 
government; and help coordinate and simplified tax laws and 
administrative policies to achieve more orderly and less 
competitive fiscal relationship among the levels of government.
    As a former local government official who served for 14 
years on the Fairfax County Board of Supervisors, including 
five years as the chairman of the county, I have witnessed the 
good, the bad, and the ugly of intergovernmental relations. In 
our community, we led efforts to improve regional air quality 
enabled by strengthened Federal clean air regulations. We also 
dealt with the burden of unfunded mandates on localities like 
those imposed at the Federal level by the No Child Left Behind 
Act.
    And in Virginia, we adhere unfortunately to the Dillon 
Rule, which means local governments in my State only have those 
powers expressly granted to them. The Dillon Rule severely 
constrains the ways in which local governments can raise 
revenue to pay for public safety, public education, and 
mandates placed on localities by both the Federal and State 
Governments, and I think that is really important. Not all of 
the problems emanate from Washington. Many of them from the 
local government perspective emanate from State capitals.
    The revenue burden is why those of us from Dillon Rule 
States are particularly offended by the Trump budget and the 
administration's so-called infrastructure plan. Undergirding 
both is an assumption that the Federal Government defunds an 
activity or shifts the funding burden down to State and local 
governments and that there are untapped and unlimited revenue 
reserves that will fill the vacuum left by the Federal 
Government.
    The infrastructure plan, for example, would be paid for by 
taking money from Federal transit investments, and the plan 
would flip the Federal highway funding match on its head by 
requiring local governments to come up with an 80 percent of 
project costs as opposed to the current 20 percent. A Penn 
Wharton Budget Model team found that the plan would likely lead 
to an additional at best $30 billion in State, local, and 
private spending, 98 percent less than the $1.3 trillion the 
administration has claimed would be raised by the plan.
    The President's budget would compound the infrastructure 
investment crisis by retreating on Federal funding for things 
like Metro and the types of infrastructure loans, TIFIA loans, 
that have helped fund transit throughout the United States. The 
budget also sweeps the rug out from under local affordable 
housing initiatives by eliminating entirely the Community 
Development and Community Services Block Grants, as well as the 
HOME Investment Partnership Program. These housing cuts alone 
would cost my communities in Fairfax and Prince William 
counties right across the river nearly $10 million, local 
government, in affordable housing investments. The proposed 
cuts would expose the conservative panacea of block granting as 
potentially a more expedient method of cutting Federal 
investments in local communities.
    I look forward to our discussion today and hope it is not 
bound by rigid ideology. We should be mindful that not all 
unfunded mandates consist of the Feds putting mandates on 
States. All 50 States guarantee their citizens the right to a 
public education, but it is often local governments that bear 
the majority of the financial burden for public education. In 
my community, for example, 80 percent of the cost of public 
education is borne my local taxpayers, not by the State.
    Additionally, not all regulations or mandates are bad. 
There are Federal regulations that ensure everyone's right to a 
quality education. This Federal intervention was necessitated 
by State- and local-level intransigence in the past. This 
equality was hard fought for, and we should never again open 
the door to the abuse and discrimination that preceded it.
    Finally, we cannot ignore that a lack of regulation can be 
a form of an unfunded mandate in itself. For example, pollution 
from a State that lacks strong environmental protections can 
and will drift into neighboring States, creating air-quality 
issues and health problems that impose costs on both private 
and public sectors. Through the work of this committee and the 
task force, I hope we can create bipartisan support for 
unfunded mandate reform and find broad agreement that the 
Federal Government can and should improve its coordination and 
collaboration with State, local governments, and tribal 
governments. I hope the discussion today furthers our work 
towards those ends.
    And I thank you, Mr. Chairman, for calling us together for 
this hearing.
    Mr. Palmer. I thank the gentleman.
    I am now pleased to introduce our witnesses, the Honorable 
Gary Richard Herbert, Governor of the State of Utah; the 
Honorable Susana Martinez, Governor of the State of New Mexico; 
and the Honorable Clement Leroy Otter, Governor of the State of 
Idaho and a former Member of Congress and the old '70's TV show 
Welcome Back Kotter, welcome back Otter. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hand.
    [Witnesses sworn.]
    Mr. Palmer. The record will reflect all witnesses answered 
in the affirmative. Please be seated.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made part of the record. As a reminder, the clock in front 
of you will show you your remaining time. The light will turn 
yellow when you have 30 seconds left and red when your time is 
up. Please also remember to press the button to turn your 
microphone on before speaking.
    Our first witness to give testimony will be Governor 
Herbert from Utah.

                       WITNESS STATEMENTS

             STATEMENT OF HON. GARY RICHARD HERBERT

    Governor Herbert. Well, thank you. And, Chairman Gowdy, 
Chairman Palmer, Chairman Bishop, Ranking Member Connolly, and 
members of the committee and the Speaker's task force, I thank 
you for inviting me here today. I've been speaking about this 
issue for many years on--about the importance of federalism, 
what some describe as the vertical separation of powers between 
the State in the Federal Government, and to me this hearing is 
a sign of progress.
    Often when we talk about federalism, we focus on its 
constitutional foundation. That's important, but there's a very 
practical reason for federalism, to create better policy. As 
States, we've tried a wide variety of approaches to solving 
specific problems and developed expertise across the spectrum 
of public policy. When our political culture mistakenly 
presumes that the greatest expertise resides in Federal 
agencies, Americans miss out on the lessons already learned by 
the States.
    Today, I'd like to suggest several Federal laws that need 
to change to respect the separation of the power and 
responsibility and facilitate better policymaking. First, I 
would like to point out that laws and rules are poor 
substitutes for cultural norms, and what we really need is a 
cultural change within the Federal Government. Congress and 
Federal agencies must stop viewing States merely as--State 
input as merely a box-checking exercise rather than the genuine 
attempt to learn from what we're doing.
    Some infractions of federalism are process problems. The 
U.S. Code is littered with suggestions that Federal agencies 
consult with States as simply one among many stakeholders. For 
example, the Water Resources Development Act suggests that the 
Secretary may consult with key stakeholders, including State, 
county, and city governments. Similar language is found in the 
National Historic Preservation Act, the Energy Policy Act, and 
many, many more.
    And even as the title of today's hearing implies, the 
States are--States are not stakeholders. We're sovereign 
governments, partners who have been involved in--should be 
involved at the beginning of and throughout the policymaking 
process. The boilerplate language of these laws should be 
amended to reflect that reality.
    In the same vein, the National Environmental Policy Act, 
NEPA, requires a Federal agency to work with States to develop 
various alternatives and an environmental impact statement but 
also allows the agency to ultimately ignore input from the 
States. Sometimes the NEPA process feels like a little more 
than an exercise in generating high-quality paperwork. The law 
should be amended to give States not just a voice but a vote in 
the selection of a NEPA alternative, a change that would make 
Federal land management in the West far more democratic and 
responsive to the voters.
    States should also have a more substantive role in 
execution. The Endangered Species Act authorizes the U.S. Fish 
and Wildlife Service to write management plans, designate 
critical habitat, and impose land-use restrictions. This 
doesn't make necessarily sense to me. Utah's Division of 
Wildlife Resources is staffed with some of the best biologists 
in the field, who have a profound knowledge of Utah's ecology 
and wildlife. There is no good reason States shouldn't take the 
lead in species recovery.
    I don't want to leave you with a completely negative 
picture. We are currently enjoying a season of good 
relationships with many Federal agencies, many of whom are 
trying to push decision-making back down to the States, and 
that is refreshing, though it does illustrate what I said 
earlier about the importance of a culture of cooperation with 
the States. Good cooperation should not depend on a particular 
official or administration; it should be simply the way things 
are always done, regardless of who is currently in power.
    Again, I think we are making progress. Yesterday, several 
of my colleagues and I met with Speaker Ryan and later with 
Minority Leader Pelosi. Representative Pelosi quoted--reminded 
all of us of the famous quote of Judge Brandeis who said States 
of the laboratories of democracy, and she said let's let States 
help lead in developing good policy. I couldn't agree more.
    I also added another famous quote that most of you know 
about our Father of our Constitution James Madison who, in 
talking about in trying to ratify the Constitution and 
alleviate the fears that the States had about this new stronger 
Federal Government said to the States not to worry, Federalist 
45, it's an interesting read and it's a short one so it won't 
take a long time, but he said don't worry about the Federal 
Government because the powers we've given the Federal 
Government are few and defined, article 1, section 8 of the 
Constitution. He went on to say the powers we've given to the 
States, though, are numerous and indefinite.
    We need to get back to the vision of our Founding Fathers. 
We do need to change the culture and the thought process. We 
the American people are asking you the Federal Government to do 
more than your responsibilities would entail, more than what 
our Founding Fathers expected you to do. Rather, they should 
be--in fact, if they have problems and issues, they should 
first ask the States and their local governments and see if 
they can find a solution to the problem. We should get back to 
asking the States. As I said in my initiative as chair of the 
National Governors Association three years ago, the States, 
which are closer to the people, much more responsive to the 
people, quicker to act, and doing it less expensively and more 
effectively, are where in fact we should be working. States are 
finding solutions and improving people's lives.
    Thank you. I look forward to your questions.
    [Prepared statement of Governor Herbert follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. I thank Governor Herbert.
    Governor Martinez, we look forward to your testimony.

               STATEMENT OF HON. SUSANA MARTINEZ

    Governor Martinez. Chairman Gowdy, Ranking Member Connolly, 
Task Force Chairman Bishop, and members of the committee and 
the task force, I am very grateful for this opportunity to 
speak with you today about the balance of power between the 
States and our Federal Government.
    As Federal legislators, you all face an incredible 
challenge in finding solutions that work for a nation of 320 
million people in urban, rural, and frontier areas spread over 
3.8 million square miles. In fact, our nation's incredible 
geographic and human diversity makes finding a cookie-cutter 
solution next to impossible. What works in South Carolina may 
not work in Virginia. And what works in New Mexico may not work 
even for our neighbors in Utah, which is precisely why it is 
imperative the Federal Government recognize the sovereignty of 
States, work with us, and allow us to lead and to innovate. 
When you do, great things really do happen.
    The New Mexico Human Services Department implemented our 
State's Medicaid managed care program, Centennial Care, in 2014 
under a demonstration waiver granted by the Centers for 
Medicare and Medicaid Services. Through this innovative 
program, managed care organizations administer a full array of 
services to New Mexicans through an integrated model. Care 
coordinators across the State help to ensure members receive 
the right services at the right time. New Mexico is a leader in 
providing home- and community-based services, and we are 
actually decreasing per-person healthcare costs. This 
innovation and resulting success is possible because the 
Federal Government allowed New Mexico to design and implement a 
Medicaid program that works for our State and for our people.
    House Resolution 1333 sponsored by Congressman Earl 
``Buddy'' Carter of Georgia would provide us with even more 
freedom to further improve program efficiencies. When we do not 
receive that flexibility, inefficient Federal processes tend to 
have dire consequences that reverberate across my State.
    As another example, it takes our Energy, Minerals, and 
Natural Resources Department just 10 days to review new oil and 
gas permits, but it takes the Bureau of Land Management in New 
Mexico an average of 250 days. This delay has led to a BLM 
backlog of more than 800 applications for permits to drill in 
Mexico at a cost of approximately $1.9 million to New Mexico 
and $3.4 million to the Federal Government per day. Annually, 
this amounts to 100--excuse me, to $710 million for New Mexico 
and $1.2 billion for the Federal Government in lost and delayed 
revenue.
    If the BLM were to delegate its oil and gas revenue process 
to New Mexico and to other Western States for those--for these 
resources on Federal lands--States like Montana and Utah--it 
would result in billions of dollars of additional State and 
Federal revenue.
    During my time as New Mexico's Governor, I've seen two 
different sides of the State-Federal partnerships. At times, 
regulations and edicts from Washington have brought rigid and 
formulaic programs to New Mexico that do not allow us to adapt 
them to our unique States. That tide seems to be turning as 
Federal agencies like the Department of Interior and the 
Department of Transportation are engaging with us to face 
common challenges. As elected officials, we all strive to 
deliver the best possible results for those that we represent 
as well. We do that best when we work together and--
constructively and collaboratively as true partners.
    And I thank you for this opportunity to speak with you.
    [Prepared statement of Governor Martinez follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. Thank you. Governor Otter, if you would give 
your testimony.

           STATEMENT OF CLEMENT LEROY ``BUTCH'' OTTER

    Governor Otter. Well, thank you, Mr. Chairman, and I 
appreciate very much the opportunity to be here. Chairman Rob, 
good to see you again--Chairman Bishop, good to see you again, 
and Ranking Member Connolly. It is indeed--members, it is 
indeed a pleasure to be here today and have the opportunity to 
appear before you and talk about the relationships between the 
Federal Government and the Federal Government's creators, the 
States.
    I come to you in my 12th year as Governor of the great 
State of Idaho. I have approximately 113 days, 13 hours, 27 
minutes until I leave office, but then, who's counting? During 
my tenure, there's been three presidential administrations. At 
times, they have provided me the opportunity to see federalism 
at its finest. Idaho has been treated as a true partner with a 
meaningful voice in national policies and most--that most 
directly impact all our citizens.
    At other times and far too often, I have experienced the 
kind of dysfunction and heavy handedness from our national 
government that make a mockery of what the Founders referred to 
as federalism. In fact, I've seen both interpretations of 
federalism come into play on a single issue not only during my 
six years here in Congress but also as my three terms as 
Governor.
    The limited and narrow powers granted to the Federal 
Government by our Constitution have been expanded 
exponentially, constantly reaching far beyond those originally 
enumerated and the central powers relegated through the Tenth 
Amendment to the dustbin of history. The kind of mission creep 
is most apparent in Idaho and throughout the West wherever the 
Federal Government controls access to the enormous and vast 
swaths of our lands. Instead of being recognized as sovereign 
States with equal standing in our union and essential interest 
at stake, when it comes to managing our resources, we find 
ourselves continually having to ask the Federal Government, 
``Mother, may I?'' And the problem increasingly extends beyond 
land management to issues as diverse as immigration and health 
care.
    Nevertheless, hope abounds. I want to express my 
appreciation to Congress and the current administration for 
working to restore the standing of States as true partners in 
governance. After years as an afterthought, how we collaborate 
and develop our own solutions once again matters again.
    In Idaho, this rebirth of federalism is resulting in 
development and application of innovative approaches to 
addressing shared challenges. With the encouragement of 
President Trump and the Congress and consistent with our role 
as the States as laboratories of democracy, I signed an 
executive order in January of this year directing my Department 
of Insurance to seek creative ways of improving access to 
affordable health care coverage in Idaho.
    We have seen premiums for the Affordable Health Care Act 
skyrocket in Idaho over the past three years. As a result, 
individuals and families are forced to make unacceptable 
choices: paying for health care or paying for groceries. But 
encouragement by elimination of the individual mandate and this 
administration's expressed support for greater flexibility, 
Idaho will now have the opportunity for an off-exchange's State 
plan that provides essential coverage at more affordable rates.
    Despite some overwrought arguments to the contrary, our 
plan actually will complement the ACA. That's because Idaho is 
requiring that insurance company carriers that offer choice in 
the State-based plans must also provide ACA-qualified plans. 
And most importantly, all ACA and State-based plans will be 
within the single risk pool, thereby broadening the risk and 
providing for the individual marketplace.
    Instead of standing idly by as more and more hard-working 
Idahoans are priced out or left out of the ACA insurance 
coverage, we decided to tackle the problem head-on using a 
first-of-its-kind approach, and we are confident that it will 
work.
    Another good example of our improving relationship with the 
Federal Government relates to a program known as the Good 
Neighbor Authority. In 2014, during the last administration, 
the 2014 Farm Bill authorizes States to lead forest restoration 
projects on national forest lands. That collaborative, cross-
jurisdictional effort is increasing the pace and scale of 
timber harvest projects in areas prone to insect damage, 
disease damage, and subsequent wildfire.
    Over the next three years, we expect to treat nearly 11,000 
acres of Federal Forest Service land using the Good Neighbor 
Authority, harvesting 70 million board feet of timber and 
bringing $14.5 million in revenue. Good Neighbor Authority 
improves the forest health, reduces fire risk, boosts the rural 
economy, and pays for itself. It truly is the gold standard for 
cooperative federalism.
    We are similarly encouraged by the Trump administration's 
commitment to streamlining efficient and costly environmental 
review process. Decisions too often are being made in 
anticipation of being sued rather than based on sound science 
and local conditions.
    And finally, we are--continue to benefit from the 
flexibility that's being offered in Every Student Succeeds Act. 
Idaho now is empowered to be the architects of our own K 
through career education in Idaho.
    While this recent renewal of classic federalism is welcome 
and refreshing, there still remains much work, and I appreciate 
this committee's attention to that work. Again, thank you for 
the opportunity to testify before you today. Your continuing--
and thank you also for your continuing service to the United 
States of America. And, Mr. Chairman, I stand ready to answer 
questions.
    [Prepared statement of Governor Otter follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palmer. I thank the witnesses for their testimony. The 
chair now recognizes the gentleman from Utah, the chairman of 
the Committee on Natural Resources and chairman of the 
Speaker's Task Force on Intergovernmental Affairs, Mr. Bishop.
    Mr. Bishop. Thank you, Gary, and thank you, the three 
Governors, for joining us here today. It is extremely good to 
have you back here. And I am grateful to be here, especially 
for the task force. I noticed I think about six members of the 
task force have been or were here or are leaving here at the 
same time, whatever.
    Let me tell you what I am going to ask each of you so you 
can be thinking about it and then preface this for just a 
second.
    So, Governor Herbert, I want to hit you up on the 
consultation concept again, go into more detail on that. Ms. 
Martinez, I do want to talk to you about how we can make this 
effort on federalism a bipartisan approach, and for Governor 
Otter, I want to talk to you again about what you called 
mission creep or creeping conditionalism. You have to realize, 
I mean, there are about 266 former legislators who are Members 
of Congress. I don't know why we forget our lessons we learned 
in State legislature, but it seems when we come here to 
Congress, all of a sudden we want to solve all sorts of 
problems, regardless of how those problems are solved.
    There is something that is very unique now as both parties, 
both liberals and conservatives, are now talking about 
federalism under different titles more than ever before. If I 
notice, you know, Senator Feinstein has a bill that deals with 
federalism dealing with drones and Representative Cohen has one 
that deals with drug policy and Senator Baldwin has one that 
deals with health partnership. And one of you mentioned a 
resolution by Representative Carter. People are now talking 
about that. This is an opportunity we have of actually trying 
to implement it.
    So, Governor Herbert, let me start with you. You talked 
about collaboration, how important it is. We have long talked 
about consultation is important. How do we actually define 
consultation here to allow that State and local governments are 
ensured that they are consulted and that their comments are 
taken seriously? For example, we have had court cases in the 
State of Utah where commissioners' decisions have been thrown 
out because they said the commissioners had too much influence 
vis-a-vis NGOs. How do we ensure that States actually do 
fulfill that consultation role?
    Governor Herbert. Well, I think part of it is what I talked 
about, a culture change. We need to go back and review the role 
of the Federal Government in conjunction with the role of the 
States. It is often forgot that Federal Government was, as 
Butch Otter has said, created by the States. And we are 
sovereign States. We are, as Justice Brandeis said, you know, 
laboratories of democracy. We do have a role to play. And that 
is part of an attitude thing. For whatever reason, we have got 
to the point where we seem to ignore the role of the States and 
aren't listening to what the States are doing and let them 
perform their role as laboratories of democracy.
    Mr. Bishop. You went through a litany of laws in which it 
is allowed. Would it be better if we actually wrote laws so it 
was mandated?
    Governor Herbert. I think that, one, there ought to be a 
mandate to listen and respect the role of the States and, 
again, it's not just a matter of checking off a box and saying, 
well, we've got your input, now we'll ignore it.
    Mr. Bishop. Okay.
    Governor Herbert. We think that the States should have a 
role to make decisions, and we ought to devolve the decision-
making power back to the States. We'd get a better result and 
less cost to the taxpayer.
    Mr. Bishop. Governor Martinez, how can we make this concept 
of federalism bipartisan? I mean, you represent a purple State, 
whereas in Utah and Idaho I think we have got zoning ordinances 
that keep Democrats at bay.
    Mr. DeSaulnier. If only you had a little purple.
    Mr. Bishop. Well, I am not going to say anything about 
Californians. So how do we make this issue bipartisan?
    Governor Martinez. Thank you for that question. So sorry, I 
forget the button. Thank you very much for that question, 
Congressman Bishop. I think it's important that we remember 
that we're not politicians but we're actually leaders. I am a 
Republican Governor in a State where we're outnumbered three to 
one by Democrats and independents, and so therefore, I have a 
very clear understanding that I represent all the people of New 
Mexico and not just those who voted for me or those of the same 
party.
    We have done this many times through, for example, when I 
expanded Medicaid. When I expanded Medicaid, it was not 
necessarily something that was a Republican thing to do. 
However, I went on a listening tour, private and local 
communities, private businesses, I did it with organizations 
and advocacy groups and wanted to hear why I should or should 
not expand Medicaid. And at the end of the day I did what was 
right for the people of New Mexico. I actually did expand 
Medicaid and I have also, through that process, costs per 
month--per person and per month have actually gone down, and 
that's why we're a leader in New Mexico because this was not a 
political decision.
    Mr. Bishop. I appreciate you doing that because you're 
talking about the attitude that Governor Herbert was talking 
about, and in the five seconds I have got left, I appreciate 
what you are talking because we are going to have an energy 
bill that tries to partner with the States to allow the States 
to do all the paperwork, keep the Federal standards but the 
States do the paperwork to see if we can actually work together 
more. I hope that comes in there.
    Butch, I am out of time, but if there is a second round, I 
want to come back to this idea of mission creep and creeping 
conditionalism with you. I will yield back but--sorry.
    Mr. Palmer. The chair now recognizes the gentleman from 
Virginia, Mr. Connolly, for five minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And, Governor Martinez, I appreciate the decision you made 
on the expansion of Medicaid. I believe Governor Kasich, your 
Republican colleague in Ohio, made a similar decision. And we 
are now wrestling with it yet again in Virginia. It is costing 
my State billions of dollars not to do it. It is 400,000 people 
not getting coverage that otherwise would get it. And 
ironically, it is the red parts of the State, it is rural areas 
that are seeing the pressure on their hospitals and clinics 
closing because they financially can't make it. And the 
expansion of Medicaid would save those hospitals and provide 
care to people who desperately need it. So I applaud your 
nonpolitical decision, and I think that is the spirit in which 
Republicans and Democrats ought to approach governance, 
especially at the State and local level.
    All three of you come from Western States, and I know that 
if we had the Governor of New York and the Governor of Virginia 
and some other Governors, we might have a different perspective 
about the Trump administration and how helpful it has been or 
not, and I guess the jury will be out. We will see. But the 
philosophy you all are sharing with us, I find myself largely 
in agreement in principle. And, Governor Herbert, I was shaking 
my head listening to thinking, you know, a lot of wisdom there, 
but doesn't that apply to local governments, too? Are any of 
you Dillon Rule States?
    Governor Herbert. I come from local government.
    Mr. Connolly. You come from local government.
    Governor Herbert. I was a local county commissioner, and I 
have concerns about making sure that the State and the 
legislature and the Governor respect the role of the counties 
and the cities, so certainly there's some tension there.
    Mr. Connolly. Yes.
    Governor Herbert. The difference is, though, the States 
created those local entities, so they have--they are the 
mother. They're the ones that created it. The Federal 
Government is created by the States, that miracle in 1787, so 
it's a matter of roles and responsibilities under the law. 
You're right; it should not be a partisan issue. It's the 
vision of our Founding Fathers embedded in our Constitution.
    Mr. Connolly. Yes. Certainly, there is a legal argument 
that local governments are the creatures of the State. They are 
created by the State. But practically speaking, that doesn't 
really get us very far. In my State, the local government I 
headed is the biggest in the State and one of the biggest in 
the United States. We were a full-service--you know, my budget 
is bigger than the--you know, our budget was bigger than seven 
States' budgets. And what we constantly were subjected to--and 
this is not unique to my State. You see this tension in lots of 
States.
    But, you know, the State legislature was prejudiced against 
the more affluent northern part of the State, which, by the 
way, funds about half of the State. And so when you look at 
formulas for allocating resources, we always got the short end 
of the stick. In fact, one egregious example, there was a 
library fund years ago created, of course mostly funded by 
Northern Virginia by my taxpayers, and they actually had a 
formula that said no jurisdiction larger than 900,000 could 
qualify for benefits from the fund. So we funded the fund, and 
we got zero benefits because of course we were the only 
jurisdiction with more than 900,000 people in the State of 
Virginia it just so happened. It got that egregious.
    And, you know, we get real nervous when people talk about 
block granting things because that goes to the State capital 
where we know we are going to get the short end of the stick. 
We won't get a fair share. And so I am just curious, since none 
of you actually address local government in your opening 
remarks--understandably, you are talking about your 
relationship with the Feds--but what is good for the goose is 
good for the gander. What about your local governments? Have 
you ever taken a careful look at the State level about the 
unfunded mandates you impose, not you personally but the State 
does and sort of the imposition sometimes you make in laws and 
regulations that they then have to implement? Because the 
ultimate implementer of everything is local government. 
Governor Otter, you are shaking your head.
    Governor Otter. Yes. Well, thank you, Representative 
Connolly. I can tell you this, that in my 12 years as Governor 
and all the legislation--probably 350 pieces of legislation 
that I signed--am responsible for either signing or not signing 
or vetoing every year, in the most cases, the limitations that 
are put on local units of government are actually edicts from 
the Federal Government. And you can go right through almost 
every agency starting with the EPA and the Clean Water Act and 
those sort of things, so if a local government wants to develop 
in a certain area, they must certainly follow through all the 
----
    Mr. Connolly. If I can interrupt, Governor Otter, because 
of time. Forgive me. But, I mean, that is not true in the case 
of education funding formulas. That is a State formula, not a 
Federal formula. And it has a huge impact on local governments 
and the tax rates they have to charge or not charge to fund 
their local education. In my case 80 percent of our school 
funding we bear because the State has a funding formula that 
just so happens to discriminate against certain parts of the 
State and benefits other certain parts of the State. I am sure 
politics has nothing to do with it. That is not a Federal 
issue, that is a ----
    Governor Otter. Well, perhaps ----
    Mr. Connolly.--State issue.
    Governor Otter.--we are a little more fair in Idaho because 
we actually assign so much money for each and every classroom 
unit no matter whether it is in Weippe, Idaho, or Boise, Idaho, 
the largest school district or the smallest.
    Mr. Connolly. My time is up. I want to learn more about 
that. Maybe we could get you to Richmond and educate them a 
little bit about ----
    Governor Otter. Be happy to.
    Mr. Connolly.--the funding formulas. Thank you, Mr. 
Chairman.
    Mr. Palmer. The chair recognizes the gentleman from North 
Carolina, Mr. Meadows, for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman. I thank each of you 
for your testimony here today. The first one, the committee has 
reviewed a number of major Federal regulatory actions where the 
Federal Government actually did not adequately consult with the 
States. Some of those were with the EPA Army Corps of 
Engineers, the Department of Labor and its overtime rule, 
Department of Interior in terms of stream buffers are just a 
few examples of those.
    So the executive order 13132 on federalism and unfunded 
mandates actually required consultation with State and local 
governments. Can each of you very quickly let me know how you--
how do you think that this particular executive order is 
working? Is the consultation actually taking place? And so, 
Governor, will you go ahead and--Herbert, if you will go ahead 
and start.
    Governor Herbert. Thank you. The fact that we are here 
today talking about it, I think we see progress. I'm hopeful. 
The fact that former Speaker Nancy Pelosi, first thing out of 
her mouth yesterday meeting with a few of us Governors was, 
hey, Judge Brandeis, laboratories of democracy, we need to let 
you guys take the lead on these policy issues. I think we are 
getting heard. I think there's been an attitudinal change that 
needs to continue, and so I feel good about the direction we're 
headed.
    Mr. Meadows. All right. Governor Martinez?
    Governor Martinez. Yes, sir. Thank you. Certainly, there's 
been more collaboration in the last two years than I 
experienced in the previous six years as being Governor. I've 
actually been asked to sit at tables within the Department of 
Transportation, as well as sitting at the table with a 
variety--yesterday with a committee in reference to our prisons 
and the reforms that can take place for individuals that are 
moving from within the prisons and out into the communities. 
That never happened before. I never even received a phone call 
when things were taking place. And particularly when an 
endangered species was being listed, it was--the State wasn't 
given the opportunity to protect that species as it's supposed 
to be given in order to eliminate the Federal involvement so 
that we can protect it and continue to have that not on the 
list of endangered species.
    Mr. Meadows. All right. Thank you, Governor. Governor 
Otter?
    Governor Otter. Congressman, I can think of several times 
when we have been consulted many times and never listen to. 
I've served as Governor under three presidential--under three 
different Presidents, three different administrations, and from 
time to time early on in my first two years when the Bush 
administration, things began to change and not for the better. 
They got worse for the next eight years. Now, they're starting 
to get better again. So simply in--simply requiring 
consultation doesn't always work. Sometimes, there has to be a 
result and whose side are we going to make the final decision 
on, the States or the Federal Government's side?
    Mr. Meadows. All right. So let me real quickly in the two 
minutes I have remaining follow up on that because what you are 
saying is it is not enough to just listen but it is actually to 
take that input and actually put it into action. So would you 
say that what we are seeing is actually more efficient policy 
and cost savings as a result of that collaboration?
    Governor Herbert. Clearly, as we look back and just again 
one of the controversial issues of the Affordable Care Act, 
Obamacare, the Governors were never one time consulted and 
asked what's our opinion, yet we're going to be on the 
frontlines of having to implement the program.
    Mr. Meadows. So what you are saying is is this 
collaboration could actually save the American taxpayer dollars 
----
    Governor Herbert. Dollars and ----
    Mr. Meadows.--in a real way?
    Governor Herbert.--develop better policy.
    Mr. Meadows. Yes. Okay.
    Governor Herbert. And certainly, again, we ought to have 
the States weigh in, and we ought to not just be listened to 
but respected and considered and let us be part of the 
decision-making process.
    Mr. Meadows. All right. Governor Martinez, do you agree 
with that?
    Governor Martinez. Well, I agree that certainly in the 
education reform that was discussed by Congressman Connolly is 
that we were--in collaboration with the Federal Government, 
the--under the Obama administration, we were in collaboration, 
we were in agreement on education reforms, but it was our 
Democrat State legislature that was not in collaboration with 
the States and local communities.
    Mr. Meadows. But I can't help with that problem so ----
    Governor Martinez. I understand, but there are 
opportunities that we have actually agreed.
    Mr. Meadows. All right. Governor Otter?
    Governor Otter. I would say yes, and improving daily.
    Mr. Meadows. All right. So if that is indeed the case, 
would you encourage more reforms of this type where we can 
actually streamline this, yes or no in my 12 seconds? Yes, 
Governor?
    Governor Herbert. Yes, the more you involve the States, the 
better it's going to be.
    Mr. Meadows. Governor?
    Governor Martinez. Absolutely. There is no cookie-cutter 
solution that can be done for all States.
    Mr. Meadows. Governor?
    Governor Otter. Yes.
    Mr. Meadows. All right. Thank you. I yield back.
    Mr. Palmer. The chair recognizes the gentleman from 
Maryland, Mr. Raskin, for five minutes.
    Mr. Raskin. Mr. Chair, thank you so much for putting 
together this terrific panel, and it is an honor to be in the 
presence of these Governors.
    Everybody loves federalism in principle. Everybody loves 
federalism in theory, in the abstract. The question is whether 
you are willing to defend federalism when it cuts against your 
deepest-held policy preferences. And so I want to try to get 
beyond the level of principle, which we all embrace, to the 
critical issues that are facing us in this Congress.
    Let's start with marijuana. Right now, this might be the 
greatest federalism issue in the country. We have dozens of 
States that have embarked upon experiments with medical 
marijuana, with decriminalization of marijuana, with treating 
it as a public health problem rather than a criminal problem, 
and we got the Attorney General of the United States, Attorney 
General Sessions, who wants to come down like a sledgehammer on 
the States to crush all of these experiments and to revive a 
war on marijuana. And I just wonder whether any of you are 
willing to take a position on behalf of States' rights and 
federalism against what the Attorney General is trying to do? 
Governor Otter, perhaps you could start and just quickly go 
down.
    Governor Otter. Of all the States that I border, four of 
them have legalized recreational marijuana, and it would be one 
thing if that stopped at the border, but it doesn't stop at the 
border.
    Mr. Raskin. Well, nothing ever stops at the border. That's 
always the argument that the nationalizers take against people 
who I thought you were siding with, which was the States' 
rights people.
    Governor Otter. But it doesn't cause harm to my State ---
    Mr. Raskin. That is always the argument made it. Do you 
see? There is the problem.
    Governor Otter. Well, maybe that ought to give ----
    Mr. Raskin. We all love federalism in theory, but are we 
really willing to stick to it when it comes to a specific case 
where we are against it? I assume you don't favor the 
decriminalization of marijuana?
    Governor Otter. I do not.
    Mr. Raskin. Okay. So, Governor Martinez, where do you stand 
on it?
    Governor Martinez. As a prosecutor for 25 years and on the 
border of New Mexico with the Mexican border, I do not support 
the legalization of marijuana. I completely support ----
    Mr. Raskin. As a matter of States--you mean as a matter of 
exercise of your State power. The question is do you think the 
Federal Government should crush the experiments in the States 
with dealing with the marijuana problem?
    Governor Martinez. As the law stands today, it is my 
responsibility as a lawyer, as the Governor to the people of 
New Mexico. I have to comply with the laws of the United States 
Government, and that means there's no legalization of marijuana 
in my State. However, we do have a medical marijuana program 
that is very successful.
    Mr. Raskin. And they want to crush that, too. Governor 
Herbert?
    Governor Herbert. You've put the States in a Catch-22 
problem. You have a Federal law that says it's illegal. If you 
don't like that, change the law.
    Mr. Raskin. Yes, so you ----
    Governor Herbert. So that allows us then as States to take 
on the responsibility on a statewide basis. We are learning. 
We're next-door to Colorado. I've worked with Governor 
Hickenlooper. He's told us as a State and other Governors be 
very careful, watch we do. I ----
    Mr. Raskin. So you are supporting a change in Federal laws 
----
    Governor Herbert. I support ----
    Mr. Raskin.--to allow the States ----
    Governor Herbert. Change the Federal law.
    Mr. Raskin.--to experiment ----
    Governor Herbert. Yes, you can't ----
    Mr. Raskin. Okay.
    Governor Herbert. You put ----
    Mr. Raskin. So let's try another one, which is again 
something we are dealing ----
    Governor Herbert. Take it off the schedule I so we can 
actually do the research necessary to backup ----
    Mr. Raskin. Good.
    Governor Herbert.--science to back up what--at least the 
anecdotal stories.
    Mr. Raskin. Here is another one that is happening right 
now. There is an effort to wipe out medical malpractice laws 
across the country and to impose one Federal one-size-fits-all 
solution in terms of medical malpractice where the awards are 
set when you get a jury trial and so on. Do you favor that, or 
do you think each of the States should be able to decide for 
themselves what their medical malpractice laws are?
    Governor Otter. We already have that in Idaho.
    Mr. Raskin. You have what?
    Governor Otter. We have limitations on medical malpractice.
    Mr. Raskin. Sure, but they are set at different places in 
different States. You think we should have one-size-fits-all 
national solution or do you think the States should be able to 
decide for themselves?
    Governor Otter. I do not think we ought to have a national 
solution.
    Mr. Raskin. Governor Martinez?
    Governor Martinez. I agree completely.
    Mr. Raskin. Yes?
    Governor Herbert. State decision-making, no one-size-fits-
all.
    Mr. Raskin. Okay. Well, so there I just want you to know 
you are siding with the Democrats in Congress against the 
legislation that is being pushed by the Republicans ----
    Governor Herbert. It shouldn't be partisan.
    Mr. Raskin. And that is why I am with you. I appreciate the 
fact that you are standing up for the federalism principle, you 
know, in reality when it counts. Let me just do one more. The 
conceal-carry permits, there is an attempt to wipe out all of 
the laws of the States on concealed carry to say that if you 
get the right to carry a loaded weapon in Florida, which has 
very liberal laws on this, you should be able to come into my 
State, for example, which doesn't allow people who have 
domestic violence offenses or other violent misdemeanor 
convictions to get one. Do you think that should be a matter of 
national law or do you think it should be up to the States who 
gets to carry a loaded pistol in their ----
    Governor Herbert. I can tell you ----
    Mr. Raskin. Yes.
    Governor Herbert.--it's clearly--it's been tested all over 
the Supreme Court, it's a State issue. We have reciprocity. We 
have people that come to Utah, get a concealed weapon permit 
when 31 other States ----
    Mr. Raskin. And you can make the reciprocity agreements and 
----
    Governor Herbert.--run State by State by State ----
    Mr. Raskin. Yes.
    Governor Herbert.--reciprocity, there should not be a 
national norm.
    Mr. Raskin. Got you. Governor Martinez?
    Governor Martinez. Absolutely, I am--I have a conceal-carry 
license, and I at first was very leery, but I certainly 
appreciate the fact that it's something that can be decided 
within the State because, as a law enforcement family, my 
father, my husband, my son, it always worried me that citizens 
were carrying it. However, with the training that we have 
implemented, it is a very safe thing to be able to have a 
concealed carry.
    Mr. Raskin. And you don't want us trampling the laws of New 
Mexico to say we know better than you, we are going to bring it 
down to the lowest common denominator?
    Governor Martinez. That's exactly right.
    Mr. Raskin. Governor Otter?
    Governor Otter. I believe the same. It's a State issue.
    Mr. Raskin. Well, I thank you very much for standing up for 
federalism in that case, and I am happy to yield back, Mr. 
Chairman.
    Mr. Palmer. I thank the gentleman. The chair now recognizes 
the gentlewoman from Puerto Rico, Ms. Gonzalez-Colon, for five 
minutes.
    Ms. Gonzalez-Colon. Thank you, Mr. Chairman. And thank you, 
all Governors, for being here today and for your testimony.
    Coming from Puerto Rico, we also have got the same problem 
in the States, and when these executive orders may not apply to 
the island as we do not have that sovereign power, I may say 
that all those regulations did apply and do apply to Puerto 
Rico. And each agency it says the executive order shall have 
accountable process to ensure meaningful and timely input by 
State and local officials in the development of regulatory 
policies that have federalism implications within 90 days. Of 
course, that 90 days never occurred, and that designation that 
comes with that mandate always put a burden on some of the 
States to comply with those regulations. So what kind of burden 
in terms of the expenses all of your States are incurring to 
comply with all those regulations in your States? Governor 
Otter?
    Governor Otter. Well, I haven't got--I haven't added up the 
list of the costs that we've had, but I can tell you this: 
Nearly every public policy that we deal with in Idaho we have 
to factor in what the Federal Government wants us to do, as 
well as how much of the cost they want us to suffer. So I would 
tell you when we establish public policy, we really need to see 
who it helps and who it harms. And sometimes there's very 
little attention or care paid, especially from the Federal 
level.
    Ms. Gonzalez-Colon. Governor Martinez?
    Governor Martinez. Yes, thank you so much. And certainly 
our prayers continue to be with your people ----
    Ms. Gonzalez-Colon. Thank you.
    Governor Martinez.--in Puerto Rico. Regulations, for 
example, with BLM and the duplication of work that takes place 
with the Federal Government and the State Government, the types 
of testing that is done, environmental testing, that's a 
duplication of costs not only to State Government but also to 
the Federal Government and the people who are conducting 
business within our State. You know, time is money, and when 
something can take 10 days within a State regulation, what 
takes 250 days in a Federal regulation, you can see where time 
is money and that business people will end up going someplace 
else to conduct business where it is easier and better to do it 
because they don't have the Federal land that they're having to 
deal with with BLM but actually having to deal with just State 
land.
    Ms. Gonzalez-Colon. Are we talking about NEPA?
    Governor Martinez. NEPA is one of those that is required, 
yes, and then sometimes it's not required but they're making us 
do it anyway, which ends up being more expensive. There are 
regulations that actually have exclusions, but we're made to 
comply nonetheless.
    Ms. Gonzalez-Colon. And how much will that cost your State?
    Governor Martinez. Oh, cost--the costs that I was quoting 
you just a while ago, it costs the Federal Government in actual 
dollars. It is $1.9 million to New Mexico per day and $3.4 
million to the Federal Government per day in revenues. That is 
what is being lost right now because of these regulations.
    Governor Herbert. Let me just speak about Utah, and again, 
it kind of goes to what Representative Connolly was talking 
about, local government. When we put together our budget, we 
have local government comes to us and said we'll trade you one 
dollar of Federal money that comes to the local government for 
85 cents of a State dollar, and that's because the red tape, 
the regulations are so expensive they'll give a discount of 15 
percent just to get a State dollar.
    Why does it take so long for the Federal Government to make 
decisions? We had a question with Interior here on a road, 
whether it should be opened or closed on some of our public 
lands. It took us 7-1/2 years, 7-1/2 years to get a decision, 
and the only reason we got a decision was because we eventually 
decided to sue to make them make a decision. That is time is 
money, and when you have local governments say we'll give you 
the Federal dollar, give us back just 85 cents, we know that 
the cost of the Federal oversight is really getting too 
expensive and too time-consuming.
    Ms. Gonzalez-Colon. So you know that with President Trump's 
infrastructure plan we also are looking for a streamlined 
process in NEPA. Are you in favor of that?
    Governor Martinez. Yes.
    Governor Otter. Yes.
    Governor Herbert. Absolutely.
    Ms. Gonzalez-Colon. Can you provide some examples of 
specifically what can we be looking at that process directly 
for the States?
    Governor Otter. Well, I can tell you that we find most of 
the standards for our highway systems in Idaho if there's any 
Federal participation in those--in some cases if it's our State 
highways paid for by our State-only money leading to a Federal 
connection--intersection, those are required to meet the same 
standards, and those are standards that may work very well in 
Virginia or New York or someplace else, but in Idaho it's a 
little different.
    Governor Martinez. I agree. Certainly, I think NEPA has its 
place, but to have it overly expansive on a State that not 
necessarily--like, we're very rural, and to have similar type 
of testing. I believe in the facts and the evidence and the 
data that shows that--whether or not NEPA is something that 
should be applied to a particular project. If it doesn't 
support it, then we shouldn't be doing it just for the sake of 
that's how we've always done it.
    Governor Herbert. I think it speaks to the lack of trust. 
Again, the Federal Government doesn't believe that our own 
environmental scientists can make the assessment and the 
evaluation. We're doing a reconstruction of our interstate 
along the Wasatch front. It's the same right-of-way and roads 
that we've had for 50 years. Why are we having to go--because 
we're expanding capacity--a complete revival of an 
environmental assessment costs time and it's a waste of time 
and money.
    Ms. Gonzalez-Colon. Thank you, Mr. Chairman.
    Mr. Palmer. The chair now recognizes the gentlelady from 
the District of Columbia, Mrs. Holmes Norton, for five minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Much of the discussion both from those of us in Congress as 
we question you and from you have, it is assumed, an 
adversarial relationship. Of course, there is a built-in 
adversarial relationship when you are part of a whole and yet 
we are very different. We are exquisitely different from coast 
to coast.
    On the other hand, the deep pockets of the Federal 
Government does allow it, along with the Constitution and 
Federalist notions, to fund important benefits that the States 
want.
    I want to ask about Medicaid expansion because of the way 
you all have approached it. There are States that apparently 
prefer to leave a considerable amount of money, indeed most of 
the money the Federal Government would pay for--most of it on 
the table, which is to leave the health care of their own 
residents on the table. Governor Martinez, you did not make 
that decision. An article was provided from the Albuquerque 
Journal where you stated, ``Access to health care has the 
potential to improve the well-being of our families so our kids 
can learn better in school and so Mom and Dad can be better 
parents and more productive employees.'' You did accept 
Medicaid expansion.
    Governor Martinez. I did.
    Ms. Norton. And would you discuss the remarkable results 
there? The figures I have show that your uninsured rate was 25 
percent and that it is down now to 10.2 percent. Are those 
figures correct?
    Governor Martinez. Yes, ma'am.
    Ms. Norton. Governor Herbert, so you found that rather than 
assuming the Federal Government was an adversary, working with 
the Federal Government, particularly when there was money on 
the table and the health and lives of your own residents was at 
stake, that that is not always an adversarial relationship. It 
can be a very beneficial relationship, perhaps the way the 
Founders saw it.
    Governor Herbert, you of course tried to expand Medicaid in 
Utah, and I commend you for the several compromises that you 
tried to achieve so that Medicaid could be--or so that health 
care could be available for more in Utah. And you were not able 
to do that. You said, ``The poorest among us will continue to 
struggle until Utah leaders can find agreement on this 
difficult issue.'' What was difficult with the Federal 
Government funding the lion's share of health care and your 
compromising approach so as to try to bring together people who 
might otherwise be adversaries?
    Governor Herbert. Well, one, I respectfully reject the 
attitude that it ought to be adversarial. I think it ought to 
be collaborative. We have difference of opinion. There may be 
some tension there, but it shouldn't be adversarial. We should 
try to solve the people's problems.
    Ms. Norton. Exactly.
    Governor Herbert. All the money that the Federal Government 
gets comes from State taxpayers. You take the money from us, 
you come back, you come up with programs. Sometimes we like 
them, sometimes we don't. We learn from the States. We learn 
from Susana Martinez, New Mexico, and how it works in there and 
we'll learn maybe that will--we'll want to adopt in the State 
of Utah.
    Ms. Norton. Well, why were you unable, since you were 
willing to compromise, to get Medicaid expansion?
    Governor Herbert. Because we could not convince members of 
the legislature, particularly in our House side, that it would 
be the fiscally responsible thing to do in the long term. It's 
not just a matter of what can we get today, get some of our 
taxpayers' money back, but what's going to be the ongoing 
obligation in the long term? Can we afford to buy today and not 
afford to buy tomorrow?
    Ms. Norton. Yes, that was the reason that that was given 
even though there was a huge amount of money on the table and 
no indication that Congress was going to pull it back.
    Governor Otter, did you mention that you had tried some 
sort of compromise in this regard as well?
    Governor Otter. I have and I continue to. In fact, I have 
one before the Legislature this year.
    Ms. Norton. I just want to say that what this does indicate 
is that the Governors are closest to the people, and while we 
see some States that would rather leave that health care--leave 
where, for example, Governor Martinez was unwilling to leave 
the health care of her residents, increasingly we do see more 
States. Even though the affordable health care has been under 
such assault in Congress, we now see more States wanting to be 
a part of the program, and I think that has everything to do 
with who is closest to the people. We can debate the matter 
here. You have got to live with the matter in the States. Thank 
you for your testimony.
    Mr. Palmer. I thank the gentlelady. The chair now 
recognizes the gentleman from Iowa, Mr. Blum, for five minutes.
    Mr. Blum. Thank you, Mr. Chairman, and thank you to our 
panelists today for being here. I must say, first of all, I am 
a huge, huge supporter of the Tenth Amendment. In addition to 
it being in the Constitution, I also know that Governors and 
their State legislators can do most everything less expensive 
than this Federal Government and produce better results. You 
see here in Washington--this is not news to you all--there is 
no penalty for failure. Typically, when a program here doesn't 
produce results, we just spend more money on it. It is always 
we haven't spent enough money. But you all are CEOs of your 
States and you have to live with the results, so thank you for 
being here and thank you for what you do.
    I don't have an agenda here but I would like to chat about 
sanctuary cities, sanctuary counties. I am from eastern Iowa, 
and when I am out there talking to people, they just don't 
understand how cities, counties--it is not States per se, but 
how they can choose to ignore the law. And we have had 
Presidents who, if they didn't like a law, let's just not 
enforce it. You know, I think you would all agree one of the 
reasons we are the greatest nation on the face of this earth is 
because of the rule of law, and we are a nation of laws. And I 
am going to listen. I would like to have your opinions about 
sanctuary cities, how you deal with that in your State. I don't 
know if you have any in your States, but what your thoughts on 
that are.
    Governor Herbert. Well, us going first, it's a challenge 
because we do respect our local governments in Utah, so our 
cities, our mayors and council people, our county 
commissioners. We don't support anything other than the rule of 
law. We think if anybody goes contrary to that, that's a 
mistake. If you don't like the law, change the law, whether 
it's a Federal law or a State law. So I think we're asking for 
chaos and division in our country if we don't adhere to the 
rule of law.
    Mr. Blum. Do you have sanctuary cities in Utah?
    Governor Herbert. We--maybe Salt Lake City. I think the 
mayor there was--indicate we--we're not going to round up 
people and violate their peace and tranquility to be upholding 
the law of the Federal Government, so they don't feel like it's 
their responsibility. So I don't know if I'd say we're a 
sanctuary city there, but that would probably be the only place 
it would be considered at all. I don't think they claim to be a 
sanctuary city.
    Mr. Blum. Recently, I saw on TV--you probably all did as 
well--the Oakland, California, mayor saying that she felt it 
was her--ethically, she needed to forewarn potentially illegal 
immigrants that ICE was going to conduct operations in their 
area, in their neighborhood. Governor, can you give me your 
thoughts on that?
    Governor Herbert. Well, my thoughts really are it's a 
Federal issue. We actually tried to find a State solution. We 
went to the--we were challenged in court by the Obama 
administration. We lost where the court said this is a Federal 
issue. I later met with President Obama and he talked about his 
executive order, and I said, well, you're trying to do the same 
thing I did. We tried to do it by law and a State-right 
position. You're trying to do it by executive order, and you're 
going to lose in court, too, because it's a congressional 
responsibility.
    It's disappointing I think to many people across the 
country that we can't come together on that. Maybe there are 
different aspects we have disagreement, but we all agree we 
should secure the borders. Why don't we just do that? We--is 
not just the gate--or, excuse me, not just the fence, the wall, 
again talking to President Obama about this. The gate doesn't 
work. We ought to work on the gate so the people come and go as 
we think would be appropriate, and he agrees. He says, why 
can't we get Congress to act? That was President Obama to me. 
Well, that's the frustration I think of many people across the 
country.
    Mr. Blum. Well said. Governor Martinez?
    Governor Martinez. Yes. As Governor, I took an oath to 
enforce the rule of law, whether that be the Federal Government 
and the implementation of their Federal laws and the State 
laws. However, I also understand that the enforcement of 
immigration laws is that of the Federal Government and not of 
the State. I do not support sanctuary cities. I think it is 
something that is--can be very chaotic. We are releasing 
individuals from jails, et cetera, that are violent offenders 
and not notifying the Federal Government that someone is within 
our community who is a violent offender, whether be released 
from prison or from the State or from local jails that now are 
amongst the population of the people.
    And I have a responsibility to protect the people of the 
State of New Mexico, the citizens of New Mexico from anyone who 
is violent and being released from a jail. So I signed an 
executive order just shortly after becoming Governor and doing 
away with sanctuary State policies. That doesn't mean cities 
have not declared themselves as a sanctuary city. However, I am 
very much not in favor of that.
    If the law needs to be changed, the Federal law, then 
change it, but the confusion that is taking place is going to 
end up in some very terrible outcomes, and so that is why I 
don't support it. I support making sure that we're enforcing 
the rule of law.
    Mr. Blum. With the indulgence of the chair, could Governor 
Otter answer my question?
    Mr. Palmer. I yield additional time to Governor Otter.
    Mr. Blum. Governor Otter?
    Governor Otter. Well, thank you very much, Congressman. You 
know, it really is a pretty simple--28 words. ``Those powers 
not delegated to the United States by the Constitution nor 
denied to the States by it are reserved to the States 
respectively or to the people.'' And if you want to view the 
scope and the jurisdiction of supremacy, look to article 1, 
section 8--or, pardon me, section 8 of article 1 because those 
enumerated powers are exactly what the Tenth Amendment was 
talking about. That is where the government--Federal Government 
is supposed to exercise supremacy. Those are the limited and 
delegated powers.
    Mr. Blum. Thank you. I have gone past my time, but thank 
you for your service to your States. Thank you very much.
    Governor Otter. Thank you.
    Mr. Connolly. Mr. Chairman?
    Mr. Blum. Thank you, Mr. Chairman.
    Mr. Palmer. Yes?
    Mr. Connolly. Mr. Chairman, if you would just allow me real 
quickly, picking up I think on a distinction made by Governor 
Herbert. There is a distinction between declaring oneself a 
sanctuary city or county and a local police force or sheriff's 
office saying it is a Federal responsibility for enforcement, 
not ours, and we are not going to take that on ourselves. Those 
are two different things, and I think I heard Governor Herbert 
make that distinction. Certainly, in my community that is our 
position, one that we don't declare it sanctuary but we don't 
feel that it is our responsibility locally to enforce Federal 
immigration laws as such. That is a Federal responsibility. 
Thank you, Mr. Chairman.
    Mr. Palmer. The chair recognizes the gentlewoman from New 
York, Mrs. Maloney, for five minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, and I thank all the 
Governors for your service and for your testimony today.
    I would like to ask you about President Trump's 
infrastructure proposal and how it is going to affect your 
States. When the President released his proposed budget for 
2019, he announced the vague outlines of a plan that he claims 
will boost investment in infrastructure in our nation. We need 
it. His plan includes $40 billion through a rural block grant 
program, as well as $130 billion in various funding pots for 
which States will compete. But even if they win this 
competition, States would receive only 20 percent of the amount 
needed to fund an infrastructure project, and States and 
localities would have to contribute the remaining 80 percent of 
the cost.
    And he further went forward with his idea to allow States 
to impose tolls on all interstate highways, and he says this 
would allow them to raise the revenue for the infrastructure 
investment.
    So I would like to ask all of you, would you raise tolls on 
interstate highways to generate revenues for the infrastructure 
funding under this plan for your State? Are you planning to 
raise tolls which--if you want to go down just starting with 
Governor Herbert and Martinez, Otter.
    Governor Herbert. There may be some appropriate use of toll 
roads. We see them around the country. Certainly, the 
Pennsylvania Turnpike and others have been worked out very 
successfully. I'm not really in favor of toll roads. I think 
that we need to address our infrastructure needs that has been 
neglected. I think President Trump is right about that since 
the Eisenhower days. But probably an adjustment of the gasoline 
tax, which has not been done for, what, 25 years or so ----
    Mrs. Maloney. I agree.
    Governor Herbert. So if you're going to do that, at least 
to recapture what we've lost from inflation, it would probably 
be a good thing.
    That being said, you know, States aren't waiting for the 
Federal Government. Again, we appreciate the partnership when 
it's appropriate. You're taking money from us, and we'd like to 
get some of it back. But we just completed one of the larger 
construction projects in America, $1.7 billion of our 
interstate, did it all with State dollars.
    Mrs. Maloney. Governor Martinez, would you support a gas 
tax for infrastructure?
    Governor Martinez. No, ma'am, I would not.
    Mrs. Maloney. Okay.
    Governor Martinez. We've actually done something very 
different in New Mexico. Having had continuing resolutions with 
the budget, we had to become very creative in how we were going 
to widen roads, make roads more accessible. We do not have any 
tollbooths in New Mexico, and so what we've done is made sure 
that there was skin in the game for local communities, 
counties, the legislators that represent those counties and 
municipalities in the State legislature, that their port 
dollars are going towards true infrastructure. The State 
would--and then the port--the part of the infrastructure 
dollars that were given to me were part of that, and then 
Federal dollars were.
    Also private sector, they were laying, for example--
Facebook, when we brought them in, they were going to lay down 
cable for the internet, and what we did through the Department 
of Transportation is actually dig the trenches for them to be 
able to then lay down the cable that was necessary for the web. 
And so these are public-private community local projects for 
very big projects of road infrastructure that were not only 
funded but completed and completed on time and on budget.
    Mrs. Maloney. And, Governor Otter, would you support a gas 
tax or would you support tolls on your interstate highways?
    Governor Otter. As recently as two years ago, I increased 
the gas tax in Idaho and also the licensure of automobiles. One 
of the problems with just looking at the gas tax is that we 
have so many automobiles that are either 50 miles to the gallon 
but still want the same amount of safety, still want the same 
amount of space on the highway but are getting 50 miles to the 
gallon or a run-off of electricity.
    In Idaho--in fact a lot of places in the West--it would be 
very difficult to put in toll roads because of the access to 
the freeway--to the State freeways. So that's something we'd 
have to--we might be able to find some isolated places where we 
could do that, but I can tell you this, the infrastructure in 
all the West and especially Idaho--because we are a value-added 
manufacturing State and there's only one way to get our 
products to market, and that's down that highway.
    Mrs. Maloney. Okay. And also, his budget would cut $122 
billion from the existing Highway Trust Fund over 10 years, and 
this means States would receive less money from Federal highway 
and transit formula programs, which currently match at a rate 
of 80 percent Federal to 20 percent local. So let me ask all of 
you. Would your States like to receive less money from the 
Highway Trust Fund?
    Governor Herbert. You know, we would take less money if 
you'll take away the red tape and redundancy. I've met with our 
contractors in Utah, seven major road builders, and say if we 
could get the money block granted to the States without all the 
Federal red tape, we'll build the same number of roads for 50 
percent less money. You don't have to have more money, you just 
cut and save.
    Mrs. Maloney. Well, my time is expired. Thank you.
    Mr. Palmer. I thank the gentlelady.
    Mr. Connolly. Mr. Chairman, I ask unanimous consent to 
enter into the record statements from the National Association 
of Counties on this subject and from the NewDEAL Coalition, 
Debbie Cox Bultan, the executive director ----
    Mr. Palmer. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    Mr. Bishop. Mr. Chairman?
    Mr. Palmer. Mr. Bishop.
    Mr. Bishop. I have one request if I could from the task 
force at the end of this. All of you have spoken very well 
about how, if everyone has good intentions, we can always get 
along. The problem that Congress has to try and come up with 
rules to make sure that if people are jerks, we can still get 
along. So what the task force needs from you three, if you 
would be kind enough, are some specific recommendations of what 
we can do not just to ensure that you are consulted but you are 
remembered for it. But we can talk about--I didn't get a chance 
to ask you about the mission creep, how we can deal with those 
issues, the mission creep. Should States have not just 
standing, which they have, but special standing in order to sue 
on issues that are imposed upon you? Some specific ideas that 
can be very helpful to ensure that, regardless of what happens, 
States are recognized, States are understood, and States have 
the right to have that statement.
    So I am asking that for the task force, not for the 
subcommittee purposes but for the purpose of the task force as 
we try and come up with recommendations. So anything you could 
give me that is specific as to what we can do statutorily to 
help on all these issues, as the gentlelady from the District 
said, you know, what you do with the money that is laying on 
the table.
    Governor Otter. Representative Bishop, I can tell you this, 
consult us at the beginning. Generally, what we find is we 
come--we are invited late to the party. Public policy has 
already started to see its first or second or third draft by 
the time--if they ever do ask the States--by the time the 
States are asked. And make it a requirement for the agencies 
that are going to put in new rules, new--which become laws and 
which become those laws that we have to operate by, but ask us 
at the beginning. Is this something you folks need? Are we 
solving a problem here or are we looking for--just to create 
another law?
    Mr. Bishop. Perfect. Help me find a place that we can 
statutorily mandate that.
    Governor Herbert. Can I add, Congressman Bishop, that it 
would be nice if the Congress would say--when issues come 
before them and say is this best handled at the State level? 
That'll be the first question. Maybe it's their responsibility. 
Maybe they can address this better rather than just taking on 
anything and everything. I think, again, we the people of 
America are asking you to do more than was ever envisioned by 
our Constitution or our Founding Fathers. And the States are 
adept. As Congresswoman Pelosi said yesterday, laboratories of 
democracy. You guys should be leading in on policy. We have a 
lot of responsibility. You have a few. Article 1, section 8, as 
Governor Otter mentioned. So ask yourself, is this really 
something we should do or should we let this be handled by the 
States?
    Governor Martinez. I just have one last statement if I may. 
I am certainly hopeful that federalism is not just a principal 
or a theory but that it is actually a practice as a United 
States citizen. And with that I think we will actually become a 
better country every single day, understanding that the States 
have the solutions for their people that may be very different 
from our neighbors, allowing us to take lead in many of the 
projects, many of the things in which the Federal Government 
cannot make a single solution that satisfies us all.
    Mr. Connolly. Would my friend from Utah yield for a minute?
    Mr. Palmer. I don't know. Would I? It depends. What are you 
going to say?
    [Laughter.]
    Mr. Connolly. I would certainly support his request, but I 
would remind ourselves respectfully we have three Governors 
from Western States in front of us. We don't have the Northeast 
perspective, we don't have the West Coast perspective, and this 
is big country and there could be other points of view. And I 
just hope that in inviting feedback to inform us in considering 
a statute that we make sure we have broad feedback from other 
experiences, including, well, other States just so that we are 
well-informed at that we are getting all balanced points of 
view, with no disrespect at all because I found the testimony 
quite convincing this morning in many respects, but I just ask 
that of my friend from Utah.
    Governor Herbert. Can I just respond? Because I'm the one 
here who's been the chairman here three years ago of the 
National Governors Association, a bipartisan organization. We 
get along actually very well, very congenial, and we respect 
each other's difference of opinions on things. So I would 
welcome all 50 States and the five territories for that matter 
to weigh in on this issue. But I can tell you, having 
experienced my involvement for eight years with the National 
Governors Association, most all of us would say give us more 
flexibility. Let us take on the challenges. We don't need the 
one-size-fits-all mentality that comes too often out of 
Washington, D.C. Democrats and Republicans alike would agree 
with that. So I think get everybody. I think you'll find that 
we have a lot of consensus on this issue amongst the States.
    Mr. Connolly. I had dinner last night with your colleague 
John Carney of Delaware, and he said very nice things about 
you.
    Governor Herbert. Well, and I'll say nice things about him. 
We were Lieutenant Governors together, so we've been around for 
a long time.
    Mr. Palmer. Just for the record, we gave every opportunity 
for a Democratic Governor to join the panel and would really 
like to have heard from them. In that regard, what I would 
recommend is that if there are other Governors, Republican or 
Democrat, who would like to submit a statement for the record, 
the record will be held open for two weeks. I will remind you 
of that at the conclusion of the hearing.
    At this time I will recognize the gentleman from 
California, Mr. DeSaulnier, for his questions for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And being from 
California, I wish our Governor was here. It would be even more 
entertaining; he always is.
    Let me just say this challenge of course has been with this 
country forever, how this relationship works. When I was on the 
executive board of the National Conference of State 
Legislatures, to your comments, Governor, I found that 
environment to be very collegial, bipartisan, being a Democrat 
from the bay area and the State Senate. So there are examples 
where this works. And I think when you are involved in that, as 
you are, you realize that 50 States are very different and 
there are lots of communities within that.
    But there are compelling places, and I want to talk 
specifically about addiction and opioid addiction in my 
questions and the results of the bipartisan commission that the 
administration put together that was chaired by former Governor 
Christie and what the relationship is in terms of best 
practices to this epidemic and the Federal Government's role.
    So one of the key quotes from that report from Governor 
Christie is ``One of the most important recommendations in the 
final report is getting Federal funding support more quickly 
and effectively to State governments who are on the frontlines 
of fighting this addiction battle every day.'' And my district, 
very different from other places, it is a more upscale part of 
the bay area, or much of my district, and it is upper middle 
income. I have lots of meetings and put a good deal of my time 
in my former job working with the Attorney General's Office, 
now U.S. Senator Kamala Harris to deal with that. So knowing 
that it is very different in different communities, what you 
need from the Federal Government, and could you express the 
urgency you need it when it comes to addiction and opioid 
addiction in your States? Can you start?
    Governor Herbert. We're not asking for much from the 
Federal Government. Again, I am cognizant of your budget 
challenges. The fact that you're $20-21 trillion in debt is not 
lost on a State that has a AAA bond rating. We try to live 
within our means and not spend more than we take in and we have 
rational debt.
    So, that being said, I'm not looking to the Federal 
Government. We're trying to do this--this has been an issue 
that's been raised by the National Governors Association four 
years ago. We're on the cutting edge of this in the States. 
We're doing things in our respective States to address this 
issue. We're putting warning labels, we're--there's talk about 
litigation, lawsuits against the pharmaceuticals that have 
evidently withheld information about the addictive nature of 
these drugs. That's probably something that's going to be in 
our future. I think tobacco litigation.
    We are training our doctors better. We have now put a 
database in the State of Utah so that doctors can know if 
you're doctor-shopping and what your issues have been, if 
you've been in the emergency room, if you've been to a doctor, 
and your general practitioner, they can all access this on the 
internet without violation of HIPAA laws. We've got that wired 
in so there's permission given.
    So, again, we're doing things at the States. We're learning 
from each other. And again, we'll homogenize together as we 
find the successes that are taking place in the States. So I'm 
not asking for anything from the Federal Government.
    Mr. DeSaulnier. Either of you?
    Governor Martinez. No, actually, we've done the very same 
thing in making sure that we can prevent that kind of doctor-
shopping. You know, you go in for a root canal and you get 30 
days' worth of opioids, which is really completely unnecessary. 
However, that person can become addicted, and therefore, the 
database is very helpful for us to make sure that there isn't 
that doctor-shopping because from the opioids and we're not 
able to continue to have access, then you turn over to heroin, 
and heroin is very accessible because we're on the border. It 
may be very different from Montana, may be very different from 
the middle of the country, but right there in New Mexico it is 
very accessible and very cheap.
    Governor Otter. During our meetings this week, we had a 
very good roundtable on--and we had a report from the task 
force to which you referred that Governor Christie held. And 
there was one thing that almost all the States need, and that 
was a review of all Federal rules and regulations that inhibit 
us from defending ourselves from that epidemic.
    Mr. DeSaulnier. And that one thing I would ask for your 
help with, Representative Carter, a Republican from Georgia, a 
pharmacist, he and I have worked closely together. In 
California, we spent $5 million, which was not significant in 
our budget, to make sure that the Department of Justice and the 
medical board has real-time information for people who are 
doctor-shopping. So one of the things that Representative 
Carter and I have been working on is interoperability as all 
States try to bring this system up.
    And then, just lastly, until I came to Congress, I never 
was a States' rights advocate, but being from California, I am 
becoming more and more of one. When you see things that work 
well in one State that is very different from another State, 
just if we could have more of a conversation that I would see 
as more bipartisan, more evidence-based, that what works in the 
bay area is not going to work in many of your jurisdictions and 
vice versa. Some of that is politically driven obviously, but 
when we really look at the evidence and what works, including 
on immigration, I wish we had more of those discussions, and I 
hope you have them when you meet with your colleagues.
    Governor Otter. Thank you.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Governor Martinez. Thank you.
    Mr. Palmer. I thank the gentleman.
    The chair now recognizes the gentleman from Wisconsin, Mr. 
Grothman, for five minutes.
    Mr. Grothman. Thank you very much. It is an honor we have 
three Governors at one shot.
    The committee has heard from State and local governments, 
and I certainly hear from them at home all the time that the 
compliance of Federal regulations is very, very expensive. And 
lawmakers have shared compliance with Federal--some lawmakers 
have shared compliance with Federal regulators, forcing local 
governments to create funding by increasing sales and property 
taxes on citizens. Do you know how much money, say, your States 
spend to comply with Federal mandates and regulations?
    Governor Herbert. As I mentioned earlier--and I don't--we 
could probably reduce it to a number, but it's--our local 
governments tell us we'll give you a dollar--a Federal 
Government dollar to spend in exchange for 85 cents, so it's 
about a 15 percent margin as a minimum.
    Mr. Grothman. Okay. I will give you another question. I 
used to be a State legislator in Wisconsin, and one of the 
things that bothered me is sometimes Federal funds come with a 
maintenance-of-effort requirement in which you are really 
forced to spend money just to keep the Federal funds coming, 
money that you don't want to spend. Have you guys had any 
experience like that?
    Governor Herbert. We have. Remember years ago the cops 
grant where you're trying to get public safety and so you would 
get money from the Federal Government to hire policemen, but 
then you had to maintain those. You could not diminish your law 
enforcement, so it was built into your baseline. You took the 
grant and then you had to continue to spend money.
    Again, as far as the concern we talked about with Medicaid 
expansion, for our legislators, the concern is what is going to 
be the ongoing cost? And the match just stays the same, so you 
still get--have to come up with your portion of the match, and 
that's an ongoing--I mean, with the rising cost of health care 
has caused some of the legislators to say we can afford it 
today, but we're not--we don't think we can afford our match 
tomorrow.
    Mr. Grothman. How about TANF? Do you guys have any problem 
spending all your TANF dollars, or when things are going well, 
do you find that you have to look around to spend things on 
that you really wouldn't spend them on otherwise?
    Governor Herbert. You know, we've taken a little different 
approach in Utah. Again, we appreciate the programs that are 
out there to help people get out of poverty. We're probably the 
State leading the Nation in getting people out of poverty. The 
average length of time when people come to us, say, on Medicaid 
is only nine months because we emphasize we're going to help 
you in the short term. We're going to give you education, 
training, and skills so you can start helping yourself. It's 
the old adage of we're not just going to give you ----
    Mr. Grothman. Right.
    Governor Herbert.--a fish, we're going to teach you to 
fish. And that's something that I think is a good program that 
we're doing in Utah that I think other States, work efforts are 
----
    Mr. Grothman. It is, but I am going to tell you the problem 
that I think we bumped into in Wisconsin, and that is when you 
are successful, you have to keep spending the same amount of 
money or more, right, which is a problem. You are kind of 
penalized for being successful because the Federal Government 
says if you want to keep this money coming, find something to 
spend it on. And in that way you kind of penalize the 
successful States.
    Governor Herbert. Well, that's an adverse incentive, and so 
that's probably not a good policy.
    Mr. Grothman. Okay. But you guys never have a problem 
spending all your TANF money. Okay.
    Governor Herbert. Yes, I don't know--for example, CHIP, we 
don't spend all the CHIP money. Again, we're working on trying 
to get people off government assistance, and most people don't 
want to have government assistance. They want to have a job; 
they want to be able to be self-sustaining. That's the American 
way. So we don't spend it just to spend it and find ways to 
spend it. We're trying to actually solve problems.
    Mr. Grothman. You can always find a way, though, to spend 
it that might be good. I mean, the question is--I should put it 
this way: Because of maintenance effort, are you spending 
dollars that you feel you would never spend on your own if you 
had to tax yourself for it? I guess I should put it that way.
    Governor Otter. I think there's many areas, Congressman, 
where we could cut down on the amount of Federal dollars that 
we need if we're allowed to implement those things that the 
Federal Government or those programs want us to achieve. And I 
think Governor Herbert has spoken to it very well, and that is 
we know that there's going to be a time when people are going 
to hit an economic or a financial speedbump in their life, and 
yes, it's important that they have a government which can 
respond to that but only on a temporary basis. And if we had 
the rules and regulations that we could enforce that say, okay, 
while you're laid up, while you're doing this, you're going to 
get an education. We're going to send you back to school. And 
we would spend some of that money then on getting you a 
retrofitted for the economy of the State of Idaho in a new 
profession if we were allowed to.
    Mr. Grothman. I think one final question here in the final 
30 seconds, obviously, everybody is thinking about what went on 
in Florida, and you get so much stuff on the internet and so 
many articles on there, you don't know what is true and what is 
not true, but it appears as though there have been Federal 
grants in which you are encouraged to report less crimes or 
less arrests or that sort of thing. So, in other words, maybe 
people do things different to pretend that they have better 
outcomes than they are having. In other words, they are in this 
case apparently arresting fewer people than they should arrest 
or I would say they should arrest to get more Federal money. Do 
you find that there are any programs like that in which you are 
incentivized to hit targets that you might not want to hit?
    Governor Herbert. You know, I can't think of anything. If 
in fact that's the case, again, we can see the incentive is in 
the wrong place. It ought to be for--the incentive ought to be 
have better outcomes, and we ought to be full and transparent 
in how we collect the data and not try to game the system.
    Governor Martinez. I think at times there's--there are 
Federal dollars, for example, in law enforcement and the 
maintenance of efforts that takes place. However, the 
paperwork, the amount of documentation that is required to be 
submitted, the limitations that come with those dollars when 
they may be better used different than having to come to the 
Federal Government for permission, to change the shift a little 
bit but still under the umbrella of law enforcement, that 
becomes a challenge for us.
    Governor Otter. If I understand your question, Congressman, 
probably the most egregious that I've seen is the introduction 
of a new species under the Endangered Species Act that then the 
State is required to maintain.
    Mr. Grothman. Okay. I would like to thank the chair for 
giving me an additional minute.
    Governor Otter. So would I.
    Mr. Palmer. At this time I will recognize myself for five 
minutes. And the first thing I want to do, Governor Martinez, 
is your testimony talked about the fact that there are more 
than 800 applications for permits to drill in New Mexico at a 
cost of approximately $1.9 million to New Mexico and $3.4 
million to the Federal Government per day. And I think you went 
on to say that it takes an average of 250 days. That is $850 
million just on the Federal side.
    And the reason I bring that up is that I have been here--
what is today, the 27th? I have been here three years, one 
month, and 21 days, and one of the first things I pushed was 
opening up Federal lands for energy. We are an energy 
superpower. There is no question about it. The Federal 
Government has tremendous resources.
    And I bring this up in the context of infrastructure 
because I think a gas tax is the revenue source of diminishing 
returns. Governor Otter made this point about the fuel 
efficiency that we are achieving and we continue to want to do 
that. Everybody wants more fuel-efficient vehicles. So when you 
attach a gas tax, you know that that is a revenue source of 
diminishing return.
    What I think might be more helpful is if we take your 
testimony and this whole permitting thing, expedite this, get 
it down so that we not only can shorten the amount of time it 
takes to take advantage of a lease but increase the royalties--
we haven't increased the royalties on Federal energy resources 
since the 1920s--and direct a portion of that into the Highway 
Trust Fund for infrastructure. We could set it up on a system 
where there could be matching money for the States and let the 
States manage it. Would you like to comment on that?
    Governor Martinez. Yes. Thank you very much for that 
question and comment. I think it's very important to understand 
that New Mexico is really a gem within the country not only for 
energy independence for the country but also the revenues that 
it generates. There's--for petroleum, there are so many 
products. It's not just for vehicles and ----
    Mr. Palmer. That is right.
    Governor Martinez.--gas is not just for vehicles. I mean, 
what goes--what products use the petroleum? And if we took that 
out of every product that we see and touch every day, we would 
be shocked to know how much of that is used in a variety of 
products.
    The--under the previous administration, it was better to 
say nothing to the private industry, not to give permission or 
to deny it. Under my previous administration as a Governor, the 
same thing. It was easier to say nothing, which costs people 
money to have something sitting there. We had some of these 
permits sitting there three years when I entered into office, 
so it was a quick move of going forward and backwards for every 
permit coming in the door and everything that was sitting 
there. To be able to have the revenues that allow us for 
education, allow for special projects, infrastructure projects 
that we have, and our permanent fund. We have a permanent fund, 
is one of the healthiest ones in the country because of oil and 
gas just in case when it was developed we ran out of oil and 
gas. But because technology is so great now, we're able to 
actually produce more and make it more available so that we're 
not reliant on countries that are in such turmoil.
    Mr. Palmer. Well, it has been reported that there is a 
formation out West in western Colorado, southwestern Wyoming, 
and northern Utah, the Green River Formation, that holds three 
trillion barrels of recoverable oil. That is three times what 
the entire world has used in the last 100 years. I don't want 
to stay focused on that. I want to talk about some of these 
other issues and a more collaborative effort between State and 
local government.
    I think that is a legitimate discussion, particularly since 
my brother is a county engineer--on how we can work on 
infrastructure together on the permitting. What we have seen 
over the last few years is just an enormous drag on 
infrastructure and really on the economy because of permitting. 
The infrastructure is so important to the economy.
    I would like to get some feedback from each of you on how 
you see we could improve that process, maybe let the State and 
local governments do more of the work in a collaborative way, 
as you talk about, Governor Herbert.
    Governor Herbert. Well, thank you. Again, I come from local 
government. I was a county commissioner for 14 years. I 
participated with NACo on many things. We railed against the 
Federal Government when I was there about the unfunded or 
underfunded mandates would come to local government, so the 
issue is still here. It's always probably going to be here, but 
at least we ought to be cognizant of it.
    In Utah, we in fact invite--they have an association for 
the cities called the League of Cities and Towns. They come. We 
have 245 of them that they represent, the cities of the State, 
29 counties, part of our Utah Association of Counties. They are 
probably the most active people on the Hill during the 
legislative session to make sure that what we do, they get 
input and they're invited.
    We equalize our educational funding in the State of Utah so 
that if you're in a rural part on the Navajo Nation that you 
get as much education funding as you do if you're in the middle 
of the urban heartland of the State of Utah. So we try to 
respect, you know, all the local government and their 
subdivisions and make sure that they're part of the decision-
making process in the State of Utah.
    Again, a lot of it's just an attitude. We're saying we're 
not going to make decisions at the State level until we've got 
input from the local levels, and some of that we devolve down 
and let them say, you know what, that's a county issue. In your 
county, you take care of it. That's a city issue. You're a 
city, you take care of it and the State will stay out of it.
    Mr. Palmer. Okay. In that regard--and this is my last 
question--we have talked a good bit about shrinking the State 
and local consultation requirements of reforming the Unfunded 
Mandates Reform Act to help restore the States' partnership 
with the Federal Government. What I want to know is how 
important are these types of reforms, and are there other 
possible areas for reform that Congress could be, should be 
looking at to improve the relationship or communication between 
the Federal Government and the States? And each of you can 
answer that, and we will be done.
    Governor Otter. Mr. Chairman, let me begin by saying we 
learned a lot about ourselves during the recession between '08 
and '10. And what we did is what almost every Idaho family did 
is they sat around the breakfast table when the work ran out 
for Dad and said, you know, what things do we--what are--what 
is necessary and what is nice? To find out what is necessary, 
we look to the Constitution, and the Constitution was pretty 
specific about an education system for the State of Idaho and 
other areas. And then we said, well, what is nice? If we 
haven't got the money for nice, we're not going to do those 
things anymore.
    And so I think at every level of government, especially 
when you run into a time like the Great Recession--like the 
recession was, that's the process that you have to go through. 
And even further than that, after the recession we didn't go 
back to the old ways of doing things because we learned there 
were a lot of things that were simply not the proper role of 
government.
    Mr. Palmer. Thank you. Governor Martinez?
    Governor Martinez. I completely support that. You know, 
having inherited the largest structural deficit in the history 
of our State. I have not raised a tax once. And they can call 
it whatever they want, revenue enhancements, whatever it may 
be. We've not raised a single tax but we've actually become 
competitive with our surrounding States, which didn't exist for 
a very, very long time. It was believed doing the same thing 
over and over again we were going to get different results, and 
we didn't. We became competitive and we've actually recruited 
companies and businesses to New Mexico because we're doing it 
different.
    However, now, we're turning over an amazing budget. We have 
a surplus. We have great royalties. We have a permanent fund 
that's outstanding. But I hope that the next Governor doesn't 
see it as a way to start a spending frenzy and then growing 
government back to where it used to be, which was absolutely 
unnecessary, way too many employees to actually complete the 
mission of the State. And so that's what we've done is reduce 
our actual government size to fit what was necessary for us to 
deliver the services that are required.
    Mr. Palmer. Thank you. Governor Herbert?
    Governor Herbert. I'll just finish by saying this. You've 
heard me say this already. But all 435 Members of the House, 
all 100 Members of the Senate, the President should always ask 
the question, ``Is this an issue, something that should be 
better addressed at the State level?'' That should be the 
beginning of every discussion. And it'll be differences of 
opinion, but many times you're going to say, you know what, 
that probably is going to be better and more effectively 
addressed at the State level. Let them take on that 
responsibility. We will welcome that. And I think that's a 
bipartisan approach, by the way, that feeling. Thanks for 
hearing us today.
    Mr. Palmer. Well, I thank our witnesses again for appearing 
before us today. I think this has been an excellent hearing and 
very constructive.
    The hearing record will remain open for two weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there is no further business, without objection, the 
committee stands adjourned.
    Governor Martinez. Thank you. Thank you for the 
opportunity.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
